WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

Mikhail Fridman, et al.

20-693
v.

Orbis Business Intelligence Limited, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
□ Please enter my appearance as Counsel of Record for all respondents.
□ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

□ I am a member of the Bar of the Supreme Court of the United States.
□ I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be ﬁled by a Bar member.
Signature
Date:
(Type or print) Name

Christina Hull Eikhoff
□ Mr.

□ Ms.

□ Mrs.

□ Miss

Alston & Bird LLP
1201 W. Peachtree St. NW, Suite 4900
Address
Atlanta, Georgia
30309
City & State
Zip
404-881-4496
christy.eikhoff@alston.com
Phone
Email
Firm

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC:

Alan Lewis, Esq., Kim Hoyt Sperduto, Esq.

